No. 20-1246
IN THE

Supreme Court of the United States
ANNA VALENTINE, WARDEN,
Petitioner,
v.
JOHNNY R. PHILLIPS,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Alan E. Schoenfeld, a member of
the bar of this Court, certify that the accompanying Brief in Opposition contains 6,221
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Executed on May 28, 2021.

ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 World Trade Center
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

